r

1

/<?■ <?5l

No.

™—

, ' J.O.

F- ,:.~J

\.; 1 id
p:

IN THE
SUPREME COURT OF THE UNITED STATES
Washington. DC

Dr. BELLUR G. SHIVA PRASAD - PETITIONER.
(Your Name)
vs
GE Aviation & GE Company

RESPONDENT (S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States District Court for the Southern District of Ohio
(NAME OF COURT THAT LAST RULED
ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI
Dr. Bellur G. Shiva Prasad
(Your Name)
748 Stratford Drive
(Address)
Sidney. OH 45365
(City, State, Zip Code)

9374926261

(Phone Number)

. ;v
c ^r;<

QUESTIONS FOR REVIEW
1) Can an employer compel arbitration based on
virtually a forced agreement taken from a desperate
employment-applicant at the hiring stage, who has no
option to deny signing such agreement if he needs the
job; and does any such agreement not deny him/her the
fundamental right to approach a Court of law, even in
cases covering issues involving public policy violation
by corporations designing, developing, manufacturing
and selling defective products like airplane engines for
use by innocent consumers/users? This issue
concerning “forcing arbitration” also arises in
additional no compete agreements also taken by some
employers and fine print agreements taken by owners
of internet websites while accessing online
information.
2) In this case, the US District Court ordered
arbitration of Ohio State law claims which included
retaliation for both Public Policy Violation (Greeley
Act) and age discrimination covered by OCRA.
However, the latter issue was not considered in
deposition and discussion during arbitration as it was
thought to be similar to the discrimination covered by
Title VII, which was stayed.

Greeley act part of the case can be split into two parts,
one covering manufacturing and selling defective
product and the other covering discrimination faced by
the employee during the process of designing and
developing the product. The discrimination
perpetrated to the employee, when he rightly identified
serious flaws in the process of designing and developing
airplane engines without an ability to sense fuel leak
directly and shut the engine off in case leak occurs, is
covered by OCRA & Title VII. Hence a question arises
whether the Greeley act part of the case can be.
arbitrated at all?
Further, in this case, the Age Discrimination part was
not considered at all both in arbitration and by the US
District Court as the Court opined that the amended
complaint did not invoke ADEA, although OCRA was
invoked and it covers age discrimination also.
3) The US 6th Circuit Court of appeals dismissed the
appeal as filed untimely. The plaintiff had to defend the
Summary Judgment Motion of his case filed on 3/22/13,
as a Party-in-Person and submitted his 2nd rebuttal on
6/6/2018. Afterwards, he left for India after informing
the Court. Unfortunately, he saw the judgment of
3/6/19 for the 1st time on the Pacer website only on

u

3/29/19. He did not know the procedure and time
requirements for filing an appeal and filed a notice of
appeal on 4/15/19 instead of seeking time for extension
to file an appeal.
In the petitioner's view, as a layman, the notice of order
entry was not served (received by the petitioner) per
rule 77(d) of the Federal rules of Civil procedure, as the
US District Court knew about his possible trip to India
and postal mailing to his residential address in USA
was not sufficient to ensure receipt of order entry by the
petitioner. Since the petitioner did not have ECF access
and permission, viewing order entry on a website
cannot be treated as fulfilling service of order entry.
Although ignorance is not an excuse, it could be
considered as a good cause for condonation of delay.
However, his request for condonation of delay was
rejected by both the District and the Circuit Courts of
appeal. Thus the plaintiff did not have an opportunity
to present the merits of the case to the US 6th Circuit
Court of appeals. Hence the plaintiff is filing this
petition seeking granting a Writ of Certiorari.

m

TABLE OF CONTENTS
QUESTIONS FOR REVIEW...................

(i)-(iii)

LIST OF PARTIES...................................

(v)

OPINIONS BELOW.................................

(vi)

JURISDICTION.......................................

(vii)

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED......................

(viii)

TABLE OF AUTHORITIES CITED........

(ix)

STATEMENT OF THE CASE....... ..........

1-6

REASONS FOR GRANTING THE WRIT

7-34

CONCLUSION.........................................

35-40

INDEX TO APPENDICES
APPENDIX A
US Court of Appeals for the 6th Circuit;
Order of 8/26/19 - Denying Rehearing
APPENDIX B
US District Court for the Southern District of Ohio;
Order of 5/23/19 - Denying Extension of Time to
Reopen File
APPENDIX C
US Court of Appeals for the 6th Circuit;
Order of 5/9/19 - Appeal denied as Untimely
APPENDIX D
US District Court for the Southern District of Ohio;
Order of 3/6/19 granting Summary Judgment Motion
to the Defendants
APPENDIX E
Letter of 4/24/2018 addressed to the US Congress Aviation
Infrastructure Sub Committee concerning Boeing 737,
Uncontained Blade Failure Accidents With GE Safran Engine

IV

TJST OF PARTIES

[ ]

All parties appear in the caption of the case on
the cover page

[ ]

All parties do not appear in the caption of the
case on the cover page.
A list of all parties to the proceeding in the court
whose judgment is the subject of this petition is
as follows:
The address of the Parties are:
GE Aviation
1 Neumann way
Cincinnati, OH 45215
&

General Electric Company
3135 Eastern Turnpike
Fairfield, CT 06828

v

'\

IN THE UNITED STATES SUPREME COURT
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari
be issued to review the judgment below.

OPINIONS BELOW
[X] For cases from federal courts:
The opinion of the United States court of appeals for the
6th Circuit appears at Appendix A & C to the petition and is
;or,
[ ] reported at
[ ] has been designated for publication but is not yet
reported; or, [ ] is unpublished.
The opinion of the United States district court at
Columbus for the Southern District of Ohio appears at
Appendix B & D to the petition and is
[ ] reported at;____________________ _________ or,
[ ] has been designated for publication but is not
yet reported; or, [ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the
merits appears at Appendix_____ to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet
reported; or, [ ] is unpublished.
The opinion of the court appears at Appendix______
to the petition and is
or,
[ ] reported at;
[ ] has been designated for publication but is not yet
reported; or,
[ ] is unpublished.

vi

JURISDICTION
[X]

For cases from federal courts:
The date on which the United States Court of Appeals
decided my case was August 26. 2019
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the
United States Court of Appeals on the following
and a copy of the order denying
date:.
rehearing appears at Appendix.
[ ] An extension of time to file the petition for a writ of
certiorari was granted to and including (date) on (date)
in Application No. A.
The jurisdiction of this Court is invoked under
28 U. S. C. § 1254(1).

[ 1

For cases from state courts:
The date on which the highest state court decided my case was.
A copy of that decision appears at Appendix___ .
[ ] A timely petition for rehearing was thereafter denied on
and a copy of the order
the following date:
denying rehearing appears at Appendix.
[ ] An extension of time to file the petition for a writ of
(date)
certiorari was granted to and including.
A..
(date) in Application No.
on
The jurisdiction of this Court is invoked under
28 U. S. C. § 1257(a).

Vll

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Ohio public policy Violation under Greeley Act and
claims for Retaliation under Title VII of the Civil Rights
Act of 1964 as amended, 42 USC 2000e-3 and Ohio
R.C. 4112.02 (I).

Vlll

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES
Citations & brief descriptions are
provided in the text itself.

STATUTES AND RULES
FAA Standards:
14 CFR 33 related to engine reliability,
safety, performance, and airworthiness.
14 CFR 33.17 relating to fire protection
14 CFR 21.1 etseq- FAA jet engine design
approval criteria
14 CFR 21.33 etseq - FAA approval of engine
design for type certificate licensure
14 CFR 33.17- FAA engine fire safety standards
14 CFR 21.123 - FAA production of jet
engine standards

OTHER

IX

Statement of Case:
The case sub judice presents a claim for wrongful
termination of employment via a violation of Ohio
public policy Covered by the Greeley Act and claims for
Retaliation under Title VII of the Civil Rights Act of
1964 as amended, 42 USC 2000e-3 and Ohio R.C.
4112.02(1).
1.

Plaintiff Dr. Bellur G. Shiva PRASAD

(“PRASAD”) is a 72 year old male resident of Shelby
County, Ohio who is also a highly trained and
experienced aeronautical engineer whose credentials
include a Ph.D. in aeronautical engineering and he is a
naturalized Indian (Southeast Asian) American.
2.

Defendant GENERAL ELECTRIC

COMPANY (GE) is a global multi-billion dollar revenue
generating corporation headquartered in Connecticut
who conducts business in Cincinnati, Ohio via its
aircraft jet engine manufacturing division called
[General Electric] AVIATION (GE AVIATION). GE
AVIATION is a duly authorized agent of GE and GE has
ratified or authorized the conduct of GE AVIATION
and its own local agents at all times relevant in this
case. GE AVIATION designs, tests and markets jet
engines and jet engine components for sale to aircraft
manufacturers, the military, and airlines, and

1

overhauls and repairs jet engines at numerous
locations around the world.
3.

The Plaintiff was interviewed at GE

AVIATION by the general manager of engineering
technology - Chris Lorence, Sub Section Manager Kevin Klasing and others on January 27, 2012 and
hired on January 31, 2012. The Plaintiff was hired to
perform duties as an aeronautical engineer with a job
title denoted as“ senior staff engineer/technologist.”
The Plaintiffs salary and benefits exceeded
$115,000.00 per annum.
4.

The Plaintiff was expected as part of his

job duties to assist in the study, testing, and creation of
what is planned to be a highly efficient and reliable jet
engine called the LEA Pengine, a product meant for
future Boeing aircraft designs that is the result of a
joint venture between GE and a French company called
Safran which together created a company called CFM
International for marketing purposes.

CFM is the

world's largest supplier of commercial jet engines.
According to research, the LEAP engine was in the
design and testing phase at inter alia, Cincinnati, Ohio
and was not ground tested or used in flight at the time
this case was filed. LEAP engines were expected to
incorporate advanced aerodynamic design techniques,

2

lighter, more durable materials, and leading edge
environmental technologies that are expected to show a
break through in jet engine design technology.
The Plaintiffs specific job duties
5.
included performing computer simulation modeling to
study the fluid mechanics and heat transfer in the
LEAP engine, to understand the transport of fluid flow
and heat generated by the combustor (where the
aircraft fuel is burned) and other components of the
engine, so as to avoid engine fires and mechanical
failure in flight, and to ensure that the engine design
was safe and reliable and could be monitored by aircraft
pilots while in use through the use of sensor technology.
Aircraft engines on American flagged
aircraft must comply with inter alia, 14CFR 33 related
to engine reliability, safety, performance, and air
worthiness. 14 CFR 33.17 re “fire protection” states
that in general as applied to aircraft engines of all types
“(a) The design and construction ofthe engine and the
materials used must minimize the probability ofthe
occurrence and spread of fire during normal operation
and failure conditions, and must minimize the effect of
such a fire. In addition, the design and construction of
turbine engines must minimize the probability of the
occurrence of an internal fire that could result in
structural failure or other hazardous effects.”
6.

3

7.

As a member of a highly regulated
aviation engine manufacturing industry serving the
public and the American military under 14 CFR 21. let
seq. (FAA jet engine design approval criteria); 14 CFR
21.33 et seq (FAA approval of engine design for type
certificate licensure); 14 CFR 33.17 (FAA engine fire
safety standards); 14CFR21.123 (FAA production ofjet
engine standards); 14 CFR 131 (FAA jet engine
production certification standards), 18USC 32 (a)(2)
(relating to criminal activity involving aircraft parts
and a duty to communicate correct information, death
penalty offense for violation causing loss of life) which
establishes the direct and gleaned from public policy of
the American and Ohio governments, the Plaintiff had
a express and inherent legal duty to notify GE
AVIATION management including his superiors if he
became aware of a design flaw in the LEAP engine that
could affect its performance or general aviation safety.
8.

On or about June 1, 2012 the Plaintiff
contacted the Federal Aviation Administration (FAA)
and made a complaint about GE AVIATION not
installing appropriate fuel leak detectors in its jet
engines. This followed the Plaintiff making numerous
complaints to GE AVIATION management and the
Plaintiffs supervisors over a period of months about
this engine design problem and being told to “shut up”

4

about it by his supervisor one KLASING. The Plaintiff
had further complained to GE AVIATION management
about not being permitted to speak freely at staff
meetings to voice objections and make suggestions over
matters of LEAP engine design, specifically safety
related problems, and suspected intoxication of
engineer co-workers in the workplace. The Plaintiff
was threatened with termination discipline for making
complaints and was the subject of disciplinary writeups. The Plaintiff further filed an EEOC charge
against GE AVIATION at about the same time as
contacting the FAA.
The Plaintiff's employment was
9.
terminated on 6 JUNE 2012 in retaliation for his
making complaints about jet engine design problems
involving fuel detection sensors and engine safety,
complaining about intoxicated co-workers, complaining
about the adverse way he was being treated and
disrespected in the office in violation of Ohio public
policy which does not permit an employer to terminate
an at-will employee like the Plaintiff for making
complaints about jet engine safety, workplace hazards,
and co-worker intoxication, and making reports to the
FAA and the EEOC/Ohio Civil Rights Commission
(dual filed charges).
10.

Indeed, GE AVIATION complained to

5

the Plaintiff in writing about his making complaints
about product safety to him directly on 5-24-2012 and 529-2012 and then accused him of not being a “team
player” or words to that effect and subjected him to
bogus written discipline expressly and implicitly
warning him to cease his making complaints or face
termination.
11. After termination GE AVIATION advised
the Ohio DJFS in July 2012 that the reason Plaintiff
was terminated was because he “refused to come into
work” which was a false statement knowingly made.
Although Ohio DJFS findings are not admissible in
evidence, the statements of the Defendant are
admissible as testimony against its own interest.
12. The conduct of the Defendant GE
AVIATION acting as an agent for Defendant GE in
terminating the Plaintiff was motivated by a tacit and
intentional, malicious desire to violate said clear Ohio
public policy, directly and proximately jeopardized, and
was related to the clear public policy of Ohio, and there
is no overriding justification for the Defendant's
conduct and as a direct and proximate result the
Plaintiff was damaged by the loss of valuable
employment, career opportunity and income, and
suffered embarrassment, humiliation, pain, career set
back, and was otherwise damaged.

6

Reasons for Granting Certiorari;
General Electric Aviation terminated Bellur G. Shiva
Prasad (here after “Petitioner”) for reporting problems
he discovered during his employment including but not
limited to 1) failure to install fuel leak detectors on jet
engines which could have catastrophic results; 2) fluid
mechanical aspects of parallel pumping; and 3)
continued research for the use of unducted fans at
multiple locations. Petitioner raised the issues
internally within GE and externally with the FAA.
There are significant emails detailing Petitioner's
reports made during meetings as well as memoranda
regarding Petitioner's reports. While General Electric
Aviation (hereafter “GE”) would have you believe
Petitioner was terminated for issues other than his
reports, it is untrue^ To be sure, GE coins a phrase to
describe Petitioner's consistent reporting, “disruptive
behavior”. In the four months that Petitioner worked for
GE there was no complaint about his performance, no
memoranda about his performance, no emails about his
performance; and then, just days following his first
report of issues surrounding the fuel leak detectors,
Petitioner is issued his first disciplinary warning, and
within 2 weeks he is terminated.
The truth of the matter is that Petitioner noticed
an error and wanted to assist GE in fixing it and

7

protecting the public. GE wasn't going to have it. GE
wanted a keep quite culture and in fact told Prasad he
should “shut up” or get fired. Well following Petitioner's
meeting with Klasing where he was told to “shut up”,
Petitioner reported GE to the FAA and was fired.
Prasad is the type of man who envisioned
working in the field of engineering for life, His
termination from GE has set him back. He has been
unable to be re-employed. His record now peppered and
damaged by the public lawsuit he has filed.
Relevant Procedural History
On March 22, 2013, Petitioner filed a Complaint
against GE Aviation and GE in the United States
District Court for the Southern District of Ohio, Case
No. 2:13-cv-00272. On June 8, 2013, Petitioner filed an
Amended Complaint with three causes of action: (1)
wrongful termination in violation of Ohio Public Policy
and (2) retaliation in violation of Title VII of the Civil
Rights Act of 1964, 42 USC 2000e-3 and (3) retaliation
in violation of Ohio R.C. 4112.02(1). See Exhibit A. On
August 2,2013, GE filed a Motion to Compel Arbitration
and Stay Proceedings pursuant to Federal Arbitration
Act, 9 U.S.C. § 1, et seq. See Exhibit B. Specifically, GE
requested that the Court compel arbitration of
Petitioner's state claims and stay the proceedings of his
federal claim.
8

Despite the fact that GE requested that the state law
claims be arbitrated, GE noted just how similar
Petitioner's state retaliation claim and federal
retaliation claims were:
Indeed, Plaintiffs retaliation claims under Title
VII and the Ohio Civil Rights Act are essentially
identical, considering that they involve the same
elements and are based on the same alleged facts.

On March 13, 2014, the District Court granted GE's
Motion to compel arbitration with respect to
Petitioner's state law claims and stay the proceedings of
Petitioner's federal claim.
Facts
A. Background
Plaintiff Dr.Bellur G. Shiva Prasad ("PRASAD")
is a 72 year old male who is also a highly trained and
experienced aeronautical engineer. Petitioner has a
Bachelor's in Mechanical Engineering, Master's in
Aeronautical Engineering and also has a Ph.D. in
Aeronautical Engineering. He is an American Society of
Mechanical Engineers Fellow, and was an Associate
Editor of the Journal of Energy Resources Technology.
Petitioner has also authored or co-authored numerous
publications in the form of Journals and presentations

9

in conferences/symposia, since 1970.
Petitioner had several interviews with GE
Employees, including with the general manager of
engineering technology at GE Aviation Kevin Klasing,
Chris Lorence and Stacey Marroso on January 27,2012.
In Petitioner's interview with Mr. Klasing, Mr. Klasing
told Petitioner that the type of work he'd be doing
included heat transfer, fluid mechanics including CFD,
as well as combustion -- all of which would take place in
the thermal system methods design group. GE Aviation
designs and manufactures engines, primarily for
aircraft use. Petitioner gave a power point presentation
regarding fluid mechanics and heat transfer and
positive displacement compressor to a group following
his interview with Mr. Klasing. Members of the group
asked Petitioner questions regarding his presentation.
Petitioner was not offended by the questions. He
understands questions to be a way of learning and
generating new ideas. Following Petitioner's group
interview, he met with Ms. Marroso who was in human
resources. Petitioner then met with Chris Lorence,
General Manager for engineering technology.
After the interviews and before Petitioner had
even gotten home, GE had gotten in touch with
Petitioner and told him it was willing to make an offer

10

for senior staff engineer. Subsequently, Petitioner
received an offer letter from Kevin Klasing for the job of
senior staff engineer in the thermal design group.
Petitioner's salary was $115,000, plus a $5,000 signing
bonus. Petitioner was also under the understanding
that he would be considered for annual or one and a half
year bonus based on performance. However, Ms.
Marroso later informed him that GE only pays bonuses
at senior executive and officer level, but that at senior
professional band level sometimes GE grants stock
options which are offered about every 18 months.
Petitioner was also given relocation benefits, medical
insurance, life insurance and group life insurance, as
well as 4-5 weeks of vacation.
B. Employment
Petitioner began working for GE on February 20,
2012. As senior staff engineer/Technologist in thermal
system design, Petitioner was responsible for any fluid
mechanics and heat transfer analysis, specifically the
design and testing aspects. Because Petitioner was
hired for his computational fluid dynamics (CFD) skills,
he thought that many of his projects would be related to
CFD.
Petitioner was assigned specific small projects
along with the main CFD project. As part of the CFD
project, Petitioner was involved with a LEAP engine

11

project. With the CFD LEAP engine project, Petitioner
used CFD software to simulate the fluid flow inside of
an engine in the undercowl area - the area between the
engine casing and the outer cover. Petitioner was
tasked to improve the computational accuracy and
reduce the time required for computing. Prior to
Petitioner, it took approximately 16 months to complete
a computation, since CFD involves detailed calculation.
Petitioner was never given a deadline with respect to
the CFD LEAP project. Petitioner was never asked to
give status reports of the CFD LEAP project, but he was
expected to give a report at the end of the project. On the
other hand, Petitioner was given deadlines for the scoop
undercowl project, which he completed in a timely
manner. GE never gave Petitioner any notice that he
was not meeting deadlines. Petitioner was asked to
work on a project with Dr. Ching-Wei Sheih. However,
Dr. Sheih refused to work with Petitioner. Dr. Sheih
was neither disciplined nor talked to regarding his
refusal to perform work assignments determined by
managers.
Petitioner was familiar with billing for the time
he spent on certain projects. Before May 18, 2012,
Petitioner had been vouchering correctly and turning in

12

40 hours a week -- even though he had high overhead
charging. On May 18, Petitioner was told that he had to
write in the task, what he did for the past week and
submit it to account for his work (QMI Report). After
Mr. Klasing told Petitioner that QMI Reports were to be
submitted every week, Petitioner began preparing
same. Petitioner would also make notes when he
performed work and kept separate folders for each
project. Petitioner never received any comment from
anyone at GE regarding his performance.
Petitioner was invited to attend meetings
relative to his projects as well as meetings relative to
what was going on in the engineering technology area.
Presentations were given during the meetings.
Petitioner was given notices prior to meetings about
what topics they would cover, but was not informed of
any process, including any process related to questions
and answers, regarding how the meetings were going to
occur. No one ever informed Petitioner that asking
questions during the meetings were prohibited or that
asking questions were discouraged. During Petitioner's
employment with GE, he attended meetings, both in
engineering technology and in the thermal design
group. During some of the meetings, Petitioner asked
questions if he saw something which he didn't think was

13

correct or if he had additional ideas about the same
issue. Petitioner's co-workers would also ask questions.
On March 23, 2012, Petitioner made a
presentation to the group in Poland with whom he was
collaborating with on the LEAP engine project.
Petitioner summarized what had been done in the past,
what the status currently is and what should be done in
the future. Prior to the conference on March 23,2012, no
one reviewed the materials Petitioner was presenting.
Following Petitioner's presentation, no one ever
contacted him expressing discontent or suggested that
his presentation was not up to par or requested that
Petitioner present differently in the future. During his
presentation, the Poland group asked Petitioner
questions. Petitioner welcomed their questions and was
neither offended nor reported their interruptions to his
supervisors because it was wasting his time.
On April 30, 2012, Petitioner attended a meeting
about the turbine system design for the turbine area.
During the meeting, the presenter discussed heat
transfer through the turbine disc. In turn, Petitioner
raised questions about parallel pumping. Parallel
pumping was relevant to the presentation because fluid
mechanics is very important as it can generate lot of

14

turbulence structures which can change and modify the
heat transport mechanisms. Thus, considering other
mechanism which can lead to heat transfer is
important. After Petitioner raised questions, Cory
Williams signaled for Petitioner to come out of the
meeting. Mr. Williams took Petitioner to a room and
told him to stop asking questions. Mr. Williams stated
that he had been instructed by Tim Stone to tell
Petitioner to not ask questions like that. Petitioner
explained to Mr. Williams that if he sees something that
is not right, it is Petitioner's duty to raise the issue and
discuss it. Though Petitioner had never been removed
from a meeting before, Mr. Williams told him that he
was asking too many questions in meetings, period. Mr.
Williams never indicated that Petitioner's questions
were irrelevant and off topic, which were reasons given
for his termination by GE. Not only did Mr. Williams tell
Petitioner not to ask additional questions in meetings,
he embarrassed and humiliated Petitioner by pulling
him out of a meeting in front of his colleagues.
Prior to April 30, 2012, no one ever complained to
Petitioner about his work progress on any of the projects
which had been assigned to him, never told him that his
timekeeping was wrong, and never indicated that he
was behind in taking any compliance courses.

15

On May 2, 2012, there was a meeting regarding
administrative issues. Because Petitioner was unsure
of where the meeting was held, he was late to the
meeting. There are many meetings where employees
arrive late. Petitioner again asked questions to the
presenter, Mr. Athans. Petitioner never received any
correspondence or had any discussion with anyone,
including Mr. Athans, regarding the meeting.
On May 8, 2012, Petitioner gave a presentation
on CFD. Mr. Athans introduced Petitioner and
indicated to the audience that because Petitioner was
"older" than many of them, he would have more
experience than them. Petitioner was humiliated that
Mr. Athans had introduced him as "old" in front of his
fellow colleagues instead of focusing on Petitioner's
education and experience. Mr. Athans subsequently
apologized for calling Petitioner "old".
After Petitioner's presentation on May 8, 2012,
Petitioner received an email from Mr. Athans. Prior to
receipt of this email, Petitioner had never heard of a
TSD fundamentals course. Mr. Klasing did not tell
Petitioner about TSD Fundamentals or the fact that it
was required on Petitioner's first day of work. Petitioner
was never told about TSD Fundamentals in any of his
interviews on January 27, 2012. Mr. Athans told

16

Petitioner that he wanted him to read through TSD
Fundamentals course materials and complete the
homework problems. Petitioner was already well versed
in the area since he has taught fluid mechanics, heat
transfer and was still an adjunct professor at Wright
State during his employment. No one ever explained to
Petitioner what TSD Fundamentals meant.
Specifically, no one ever told Petitioner that TSD
Fundamentals are a combination of basic level
documentation of heat transfer that is aimed at new
hires as well as experienced people, including advanced
concepts and what GE's proprietary experience has
been.
After Petitioner sent a reply email to Mr. Athans
on May 8, 2012, Petitioner met with Tim Stone. Mr.
Stone essentially told Petitioner to obey orders and to
behave as a subordinate. After Petitioner's discussion
with Mr. Stone, Petitioner scheduled a meeting with
Ms. Marroso. When Petitioner told Ms. Marroso that
complaints regarding his questions were disingenuous,
Ms. Marroso started supporting the management and
failed to take Petitioner's side into account.
On May 14, 2012, Mark Pearson was presenting
on GE future engine designs. Petitioner raised two
issues. The first issue was about the comparison of GE

17

engines with Pratt and Whitney engines and how
imparting some technology from them could help GE
design engines for bigger airplanes. Petitioner
explained that GE engines use too many axial
compressors, and they're too long and have too many
parts which leads to lot of reliability problems.
Petitioner suggested employing Pratt and Whitney's
approach by employing centrifugal compressors also
which reduces the number of parts and length. The
second issue was relative to discussions of using an
unducted fan. Petitioner suggested that it might be
helpful to locate the engine in various places and then
see the effect on noise since the total noise of the
airplane depends on where the engine is located.
Petitioner attended an executive design review
meeting pertaining to fire issues and heat transfer.
Petitioner attended the meeting because it was closely
related to heat transfer and fluid mechanics. The
meeting concerned the fuel piping inside the engine and
the layout of the fuel piping. Petitioner raised the issue
of structural failure and asked if there was any way to
detect fuel leakage. However, the presenter stated that
there was nothing to detect fuel leakage. If there's a fuel
leak inside an airplane engine -- as some parts of the
airplane could reach temperatures between 500 to 800
degrees - and particularly if the leak is close to a
18

combustion chamber the engine cotxld explode
:

v

depending on the amount of leak. Because fuel leaks are
very dangerous, Petitioner gave recommendations as to
how they can be detected (i.e. by using valious types of
sensors). After the meeting, Petitioner lobked at s^tfie
sketches and drawings and talked with people in order
to find out if sensors were being used to detect fuel leaks.
Sensors that detect fuel leaks coupled with control
systems could have the ability to shut the engine off
immediately. Petitioner, as an aeronautical engineer
who understands the grave risks of fuel leaks, was
unable to keep quiet and tried talking to his coworkers
to remedy the situation. Petitioner talked to John Jack,
manager or subsection manager for the heat transfer
group, who sent one of his engineers over to Petitioner to
discuss the issue. Petitioner discussed the issue with
the engineer who indicated that the FAA did not require
such sensor. After Petitioner explained the importance
of such a sensor, the engineer agreed that GE should
implement the sensors and directed Petitioner to talk to
Adi Bhatla, the person responsible for such systems.
Around the same time that Petitioner discussed
the fuel leak sensor issue; Mr. Debarros met with
Petitioner regarding his time entries. Mr. Debarros
indicated to Petitioner that he was charging too much to
general charges. Petitioner explained to Mr. Debarros
19

that it was difficult to find the exact charge number
because when he was assigned a project, he was
supposed to be given a charge number along with the
assignment, which practice was not being adhered to
always.
Petitioner also discussed the sensor issue with
Kevin Klasing on May 25, 2012 and June 1, 2012. In the
June 1, 2012 meeting, Petitioner tried to explain to Mr.
Klasing that even though the FAA may not require
sensors that it is nonetheless important to have them
since airplane accidents have occurred as a result of fuel
leakage. Mr. Klasing told Petitioner that because the
FAA doesn't require sensors to drop it. After the FAA
discussion, Mr. Klasing told Petitioner to "shut up".
In the May 25, 2012 and June 1, 2012 meetings,
Mr. Klasing gave Petitioner a set of notices. Prior to the
May 25, 2012 meeting, Petitioner had never had any
indication from any other supervisor that anything
about his employment at GE was negative (except for
asking too many questions). Prior to receipt of these
notices, Petitioner was not aware of any managerial
requests made to him which he did not comply. Then on
Monday, May 28, 2012, Petitioner received an email
indicating that he has not entered his time and needed
to do so. However, employees at GE are able to enter
time over the weekend and on the following Monday and
20

even Tuesday. Upon receiving the email, Petitioner
promptly filled out the time sheet.
On June 1, 2012 and after seeing the notices from
Mr. Klasing, Petitioner realized that GE was trying to
terminate Petitioner because he was raising important
safety issues. Petitioner received four notices from Mr.
Klasing just six days after receiving two other notices.
Petitioner was expected to put in eight hours of work a
day from any time, with the core hours between 8:00 am
and 6:00 pm. GE never talked to Petitioner regarding
the hours he spent at work. Petitioner received the
notices at work, during normal business hours despite
GE's contention that Petitioner allegedly had not been
working during normal hours since May 25, 2012 when
he received the first set of notices. Since GE was not
addressing these important safety concerns, Petitioner
called FAA to report the issues. Subsequently,
Petitioner sent a letter to the International Civil
Aviation Organization (ICAO) reporting his concerns.
The ICAO is a supervisory organization who oversees
all the aviation aspects in all countries. On June 1,2012,
GE sent Petitioner four additional notices. Then on
June 6,2016, GE terminated Petitioner. That same day,
Petitioner filed a complaint against GE with the EEOC.
Curiously, GE waited until after Petitioner's

21

termination to investigate fuel leak detection services
in its products.
In approving Petitioner's termination, Mr.
Lorence was not made aware of the fact that Mr. Athans
called Petitioner "old". Mr. Lorence never reviewed any
of Petitioner's work in his job as general manager on a
day to day basis and never actually had personal
knowledge of what work Petitioner performed. Mr.
Klasing, Mr. Stone and Ms. Marroso never mentioned
any of the issues that Petitioner had raised to them
regarding safety concerns to Mr. Lorence. Instead, Mr.
Lorence became aware of the safety issues after
Petitioner was terminated.
A. Petitioner Was Wrongfully Discharged in
Violation of Public Policy
In Ohio, the common-law doctrine of at-will
employment governs employment relationships. Even
so, an exception to the employment-at-will doctrine
exists when an at-will employee is discharged or
disciplined for reasons that contravene clear public
policy. Painter v. Gralev. 70 Ohio St.3d 377, 1994 Ohio
334, 639 N.E.2d 51 (1994), paragraph three of the
syllabus. See also Greelev v. Miami Valiev Maintenance
Contrs., Inc.. 49 Ohio St.3d 228, 551 N.E.2d 981, (1990),
paragraph two of the syllabus (holding "the right of

22

employers to terminate employment at will for 'any
cause' no longer includes the discharge of an employee
where the discharge * * * contravenes public policy").
The elements of the tort of wrongful discharge in
violation of public policy include a clarity, jeopardy,
causation and justification elements.
There is a clear public policy related to airplanes
espoused in the statutes presented in the Statement of
Case Section, which favors the protection of passengers
from injury while onboard planes. Further, Petitioner
did not make a general safety concern. Instead, he
reported a specific safety complaint about the lack of
fuel leak sensors being absent from GE engines.
Millions and millions of people fly in airplanes every
year. Petitioner's complaint was that the lack of a fuel
sensor or similar effective solution could cause a fire in
the airplane and pose a serious safety risk to
passengers. On the other hand, if there was a fuel
sensor or adequate remedy, a fire would be prevented.
However, from the time Petitioner asked if there were
any way to detect fuel leakage, while expressing his
concerns to Mr. Klasing, John Jack, and other GE
employers/managers, Petitioner began more and more
concerned with the lack of answers GE had. In fact (and

23

curiously) after Petitioner's termination, there was an
investigation performed regarding Petitioner's
concerns. Accordingly, the clarity element is satisfied.
1)

Petitioner's Discharge Under Such
Circumstances Would Jeopardize Public
Policy.

Under the jeopardy analysis, it must be
determined whether a retaliatory dismissal of an
employee who reports safety concerns to his superiors
and subsequently to the FAA, etc. jeopardizes the public
policy against retaliatory employment actions as
expressed in the statutes and sources of authority set
forth above under clarity element. See Collins v.
Rizkana, 73 Ohio St.3d 65, 70, 652 N.E.2d 653. An
employee has to demonstrate that his employer was put
on notice of the policy considerations inherent in his
complaints. Gaskins v. Mentor Network-REM. 2010Ohio-4676 (Sept. 30, 2010).When analyzing the
jeopardy element, a court must inquire “into the
existence of any alternative means of promoting the
particular public policy to be vindicated by a commonlaw wrongful-discharge claim.” Wiles v. Medina Auto
Parts. 96 Ohio St.3d 240, 2002-Ohio-3994, 773 N.E.2d
526. If a statutory remedy which adequately protects
society's interests already exists, then there is no need
to recognize a claim for wrongful discharge in violation
24

of public policy. Id.
Moreover, in Painter v. Gralev. 70 Ohio St.3d
377, 1994-Ohio-334, 634 N.E.2d 51, the Ohio Supreme
Court held that “an exception to the employment-at-will
doctrine is justified where an employer has discharged
his employee in contravention of a sufficiently clear
public policy." The existence of such a public policy may
be discerned by the Ohio judiciary based on sources such
as the Constitutions of Ohio and the United States,
legislation, administrative rules and regulations, and
the common law.” DeMell v. Cleveland Clinic Found.,
2007-Qhio-2924. Thus, the trial court may look to
sources other than state law to analyze the jeopardy
element. Id. In DeMell, the dismissed employee alleged
that the public policy embodied in R.C. 4111.13 would
be jeopardized because the statute imposed only a
criminal penalty rather than a civil penalty for
employers who willfully failed to make and keep
accurate employee time records. Id. However, the court
found alternative means in both the Ohio Minimum
Wage Standards Act and the FLSA, which the court
found impose adequate criminal and civil penalties
sufficient to protect the public policy requiring the
maintenance of accurate employee time records. Id.
Public policy would be jeopardized by firing

25

employees under the circumstances like those
experienced by Petitioner. Petitioner voiced his
concerns and raised safety issues to GE regarding
airplanes. Millions and millions of people travel on
airplanes each year. Thus, safety for passengers is of
utmost importance to Ohio, as well as nationally and
internationally. If employers, including GE, are allowed
to terminate, harass and otherwise ostracize their
employees for voicing concerns which pose serious
safety risks, the public policy espoused in the statutes
set forth under the clarity subsection will be
jeopardized.
2) Petitioner's Termination was Motivated bv
His Complaints Related to Safety of
Passengers While Onboard Aimlanos.
Courts have applied a similar burden-shifting
analysis in claims of wrongful discharge in violation of
public policy. Sells v. Holiday Mgmt.. 2011-Ohio-5974,
2011 Ohio App. LEXIS 4890 (Ohio Ct. App., Franklin
County Nov. 17, 2011). Both of Ohio's federal district
courts and the Sixth Circuit Court of Appeals have
specifically acknowledged that the causation and
overriding justification elements of a wrongful
discharge in violation of a public policy claim "are
equivalent to [this] burden-shifting analysis." Hall v.

26

ITT Automotive (N.D.Ohio 2005), 362 F.Supp.2d 952,
960, citing White v. Simpson Industries, Inc. (C.A.6,
2001), 1 Fed.Appx. 462; Kittle v. Cvnocom Corn.
(S.D.Ohio 2002), 232 F.Supp.2d 867, 874 (holding that
the burden-shifting analysis employed by Ohio courts
for discrimination cases "correlate [s] well with the third
and fourth elements of a public policy tort") Id. at 87475. This court has similarly held that the causation and
overriding justification elements of a public policy
wrongful discharge claim are equivalent to the issues of
whether a plaintiff was unlawfully discharged in a
statutory retaliation claim. Sidenstricker v. Miller
Pavement Maintenance. Inc.. 158 Ohio App.3d 356,
2004 Ohio 4653,115,815 N.E.2d 736.
In discrimination and retaliation cases, federal
courts have considered, as evidence of pretext, evidence
that an employer subjected a plaintiff to increased
scrutiny or made efforts to create a paper trail,
especially a false one, to support disciplinary action or
termination. See, e.g.. Hamilton v. Gen. Elec. Co.
(C.A.6, 2009), 556 F.3d 428. Plaintiff may establish a
genuine issue of material fact as to whether an
employer's proffered reason is pretext with evidence
that the employer heightened its scrutiny and
supervision of the plaintiff after the plaintiff filed a

27

discrimination charge.
Although insufficient by itself, the timing of any
employee's termination can contribute to an inference of
retaliation to meet the causal connection element of a
claim. See, e.g., Cunningham v. Steubenville
Orthopedics & Sports Medicine. Inc.. 175 Ohio App.3d
627, 642, 2008 Ohio 1172; Buehler v. Am Pam
Commercial Midwest. 1st Dist. No. C-060475, 2007
Ohio 4708.
Petitioner's dismissal was motivated by his
reports of safety concern, specifically the 1) failure to
install fuel leak detectors on jet engines which could
have catastrophic results; 2) fluid mechanical aspects of
parallel pumping; and 3) continued research for the use
of unducted fans at multiple locations. Plaintiff making
numerous complaints to GE Aviation management and
the Plaintiff s supervisors over a period of months about
this engine design problem and being told to "shutup"
about it by his supervisor Mr. Klasing. The Plaintiff
had further complained to GE Aviation management
about not being permitted to speak freely at staff
meetings to voice objections and make suggestions over
matters of LEAP and other engine design, specifically
safety related problems, and was subject to ridicule,
humiliation, and ostracism as a consequence.

28

The truth of the matter is that Prasad noticed an
error and wanted to assist GE in fixing it and protecting
the public. GE wasn't going to have it. GE, had they
chosen to acknowledge, wanted a keep quite culture and
in fact told Prasad he should “shut up” or get fired.
Well following Prasad's meeting with Klasing where he
was told to “shut up”, Prasad reported GE to the FAA
and was fired.
Allegations that Petitioner's "poor performance"
and failure to follow management requests motivated
Petitioner's termination are false. Absent from any
exhibits provided by GE are any examples of
Petitioner's negative or substandard performance.
Instead, it is the word of GE, a multimillion dollar
corporation, and its management against the word of
Petitioner, an apparent threat to their livelihood
because he questioned the safety strategies that GE and
its employees used. Further, there was no opposition
from Petitioner on any management requests. To be
sure, there was one email where Petitioner was asked to
review the TSD Fundamentals course from Mr. Athans.
Petitioner received this email directly after Mr. Athans'
humiliated Petitioner by calling him "old" in front of
coworkers. This email came several weeks after
Petitioner began employment and several weeks after

29

new employees had already received the information
regarding TSD Fundamentals. Petitioner is an expert
in thermal system design and taught fluid mechanics,
heat transfer and continued to be an adjunct professor
at Wright State during his time with GE. No one took
the time to explain to him why he was expected to take
this class -- weeks after beginning employment at GE. If
Rob Athans, Kevin Klasing or any other person at GE
would have explained to him that the course contained
more than basic concepts for which he was already an
expert in and that it contained proprietary information,
he would have taken the class.
Further, there is no claim of any poor
performance until the second half of May after Prasad
had begun reporting various issues he had come across
in his research and during meetings. The temporal
proximity of the complaints coupled with termination,
literally within two weeks, is sufficient to sustain
Plaintiffs claim. There are other allegations that other
GE employees refused to work with Petitioner, namely
Dr. Ching-Wei Sheih, because of Petitioner's alleged
ineffectiveness. If this was indeed the case, then other
employees were disregarding their managers by their
refusal to perform work assignments determined by
managers. Was Dr. Ching-Wei Sheih disciplined? No.
Did he speak out against GE? No. On the other hand

30

Petitioner was not only disciplined for allegedly
refusing to do an item (i.e. the TSD Fundamentals
review), but was terminated.
Another proffered reason for GE's termination of
Petitioner is his alleged delinquency in time
vouchering. However, prior to May 18, 2012, Petitioner
had been vouchering correctly and turning in 40 hours a
week - even though he had high overhead charging. Yet
Mr. DeBarros, after Petitioner began making his
concerns known, had a discussion with Petitioner about
how his overhead charging was too high. Additional
concerns were made regarding Petitioner's alleged
failure to complete the majority of compliance training.
However, out of the approximately 39 to 40 modules, GE
failed to offer any evidence indicating how many
Petitioner had completed. In fact, Mr. Klasing even had
a spreadsheet indicating the percentage Petitioner had
completed, but failed to include it any of the exhibits or
otherwise provide it. Did Petitioner complete 5% of the
training? Did Petitioner complete 99% of the training
modules? There is simply no indication except for
testimony that he did not finish the compliance
training.
GE alleges that another legitimate reason
warranting termination was because of Petitioner's so
called opposition to management. Specifically, GE
31

employees testified and introduced exhibits indicating
that Petitioner vigorously rebutted that Mr. Athans
was his manager. However, on direct testimony from
both Ms. Marroso and Mr. Klasing confirms that Mr.
Klasing was asked to come in on May 8th and take over
the managing of Petitioner. Thus, Petitioner's
insistence that Mr. Athans was not his manager was
actually correct. Mr. Debarros believed Petitioner's
comments questioning whether or not Mr. Athans was
in fact his real manager to be rude. However, Mr.
Debarros understood that both Mr. Athans and Mr.
Klasing may have had managerial oversight of
Petitioner on his day to day tasks.
GE offered additional testimony that after
Petitioner received the first set of notices he in effect
"checked out" at work. GE handed him notices on
Friday, May 25, 2012. Then on Tuesday, May 29, 2012,
the first day back at work after giving him the notices,
GE created a second set of documents. Thus, no time
had actually passed for Petitioner to "check out"
between his receipt of the first notices and GE's creation
of the second set for Petitioner. Curiously, despite GE's
contention that Petitioner was never at work, he
received the notices at work. What changed after May
18th when Petitioner was overcharging but it wasn't an
issue until May 18th when it became an issue? The

32

moment Petitioner began making complaints he had a
target on his back.
On or about Junel, 2012 the Plaintiff contacted
the Federal Aviation Administration (FAA) and made a
complaint about GE Aviation not installing appropriate
fuel leak detectors in its jet engines. Then on June 6,
2012, GE terminated Petitioner. Petitioner's concerns
were not without merit. This is evidenced by the fact
that GE did in fact investigate its fuel detection services
in its products. Curiously, GE waited until after
Petitioner's termination to investigate. To be clear, the
overriding business justifications for dismissing
Petitioner are simply not legitimate.
3)

GE Lacked an Overriding Legitimate
Business Justification for Dismissing
Petitioner1

B. GE Retaliated Against Petitioner Based
Upon His Age
1) It Would Be an Error to Decide Petitioner's
State Age Retaliation Claim in this
Arbitration Proceeding.
Petitioner's age retaliation claim pursuant to the
Revised Code cannot be determined if his Title VII claim
is stayed in U.S. District Court. By electing to move
forward and deciding the merits of his state retaliation
claim, this arbitration proceeding will in effect be
l Because the Overriding Justification Element and Causation Element

are so intertwined, Petitioner addresses them jointly under the
Causation Element subsection.

33

circumventing law. For example, if Petitioner's claim
were to be decided in the instant proceeding, it would
have the same effect of res judicata on Petitioner's
claim. This is true since R.C. 4112 is modeled after Title
VII. What's more is that neither party to the instant
proceeding adequately asked witnesses' questions
pertaining to Petitioner's retaliation claim. Instead, the
questions focused on Petitioner's claim for wrongful
discharge in violation of public policy. Additionally,
Petitioner is a federal contractor and under federal law,
certain claims are not subject to arbitration.
2) Age Discrimination Retaliation
In Ohio, there are two ways a plaintiff/employee
can establish a prima facie case for age discrimination:
(1) present direct evidence of age discrimination; or (2)
present indirect evidence that meets a four prong test
announced in McDonnell Douglas Corp. v. Green
(1973), 411 U.S. 792,36 L. Ed. 2d 668,93 S. Ct. 1817.
The only information we have is that Mr. Athans
introduced Petitioner as "old" or "was performing work
prior to when other coworkers were babies/have not
been born". Then after that there is an email exchange
between Mr. Athans and Petitioner where Mr. Athans
explains to Petitioner that he's sorry but that he just
meant that Petitioner had a ton of experience and
Petitioner responds that he understands what Mr.
Athans was trying to say. Although Petitioner later
reported this to Ms. Marroso, it just doesn't seem like
enough.
34

Conclusion

General Electric Aviation terminated Bellur G.
Shiva Prasad (hereafter “Petitioner”) mainly for
reporting problems he discovered during his
employment including but not limited to 1) failure to
install fuel leak detectors on jet engines which could
have catastrophic results; 2) fluid mechanical aspects of
parallel pumping; and 3) continued research for the use
of unducted fans at multiple locations. Petitioner raised
the issues internally within GE and externally with the
FAA. Petitioner had no disciplinary history and there
were no complaints from GE regarding his work
performance and ability to follow instruction. It was
Petitioner's duty as an aeronautical engineer to raise
any safety issues that he may see. From the moment
Petitioner began raising his safety concerns, he had had
a target on his back. GE put Petitioner's actions under a
microscope in hopes of gathering reasons for
terminating him. However, none of their reasons are
legitimate. Petitioner was terminated mainly,
wrongfully against public policy with discrimination
based on age, etc. as a secondary factors.

35

In fact, his continuing campaign for using sensors
coupled with control systems to directly detect fuel leak
and shut the engine off before a fire erupts, is supported
by several past, catastrophic engine fire accidents
including the 2015 “incident” at Las Vegas airport
runway of a British Airways, Airbus fitted with GE
engines, during the final take off phase. The pilot
applied brakes after he was warned by ATC about the
engine fire and the airplane was stopped after it had
attained a speed of 89 mph (miles per hour). The engine
completely got burnt along with some parts of the wing
and even the fuselage. Prevention is better than cure is
a universally accepted phrase. This accident also
demonstrated that unlike what was claimed by GE,
techniques for preventing fire is much better than those
employed for quenching fire.
It is also worth noting that on or about 2015, the US
Congress conducted a panel hearing to take cognizance
of a few automotive engine fire incidents leading to a
few fatalities arising from lack of systems to detect fire
in automotive engines. This panel hearing lead to
directives to solve the problem with automotive
engines. One can easily extrapolate this to the havoc

36

which can be caused by airplane engines catching fire in
midair!
Discrimination, particularly age based appeared to be
another factor which contributed to his termination.
Defendants have missed understanding the plaintiffs
argument in his rebuttal that Title VII law as
interpreted by EEOC does not require a complaint to
EEOC. An internal complaint to the management is
sufficient. The plaintiff complained to the human
resources manager as well as to the technology
development mangers in a hierarchical fashion right up
to the then CEO, Mr. Immelt.
A letter sent to the Aviation Infrastructure
subcommittee of the US Congress (AppendixE) about
the petitioner's views/comments/suggestions
concerning the 2018 and prior airplane accidents with
CFM engine (manufactured by a joint venture of GE and
Safran) should support the plaintiffs disappointment
with the status/level of technology at GE communicated
to Immelt, former CEO of GE, oh 6/5/2012, one day prior
to his termination. In fact, GE managers have stated in
their depositions that the Plaintiffs complaint to
Immelt was the last straw, which broke his ties with
GE.

37

Plaintiff has argued in his rebuttal that the public
policy violation, which in this case relates to unsafe
design of airplane engines without incorporating
sensors to detect fuel leak and feedback control systems
to shut the engine off, if there is a leak, is an issue
covering selling of unsafe engines (products). During
design, development, manufacturing of such unsafe
engines, employees involved in such processes could be
discriminated, harassed, humiliated, etc., and such
discriminatory behavior is covered and prohibited by
Title VII laws, which cannot be covered by binding
arbitration.
Ohio Civil Rights Act (OCRA)also prohibit
discrimination based on age in addition to other factors
covered by Title VII and hence in this case
discrimination based on age could not have been
covered by any binding arbitration. The petitioner likes
to submit again that it was not just a casual comment by
a GE staff member but an intentional comment made to
demean and belittle the petitioner and his knowledge of
CFD in front of his colleagues. Clear documentary
evidence of such age based comment was submitted to
the Court.

38

Title VII law does not require a specific, explicit
statement made by an employer to the effect that they
are retaliating because of race, religion, age,
nationality, etc. With all training given by employers
like GE, such specific statements are very rarely made
in practice. It is the circumstantial evidence and the
pretexts used by the employers which establishes
retaliation for opposing discrimination. That is the
reason why plaintiffs invoke the McDonnel Douglas
Burden shifting argument to prove retaliation in many
cases. GE has offered many more pretexts
(insubordination, did not come to work, poor
performance, disruptive, “development needed”,
arrogant, did not have experience, etc.) than required
for applying the McDonnel Douglas Doctrine. The letter
presented in Appendix E will perhaps not only draw a
contrast to the above assessment of GE concerning the
technical knowledge and abilities of the petitioner but
also demonstrate the extent of bias exhibited by some
engineers.

39

Hence the petitioner demonstrated enough evidence to
prove retaliation based mainly on public policy violation
with discrimination based on age, etc. as secondary
factors.

The petitioner prays the Court to grant the petition for a
Writ of Certiorari.
Respectfully Submitted

Petitioner:
Date:

Bellur G. Shiva Prasad

vjtzj 2.0)7

Party-in-Person

40

Appendix-A
Case No. 19-3340
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ORDER
DR. BELLUR G. SHIVA PRASAD
Plaintiff - Appellant
v.
GENERAL ELECTRIC COMPANY;
GENERAL ELECTRIC AVIATION
Defendants - Appellees
BEFORE: SUHRHEINRICH, GIBBONS,
and WHITE, Circuit Judges;
Upon consideration of the petition for rehearing filed hy
the Appellant,
It is ORDERED that the petition for rehearing be, and it
hereby is,

ENTERED BY ORDER OF THE COURT
Deborah S. Hunt, Clerk
Issued:
August 26, 2019

s / Deborah S. Hunt

Appendix-B
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
DR. BELLUR G. SHIVA PRASAD,
Plaintiff,
v.

: Case No. 2:13-CV-272
JUDGE
ALGENON L. MARBLEY
: Magistrate Judge Vascura

GE AVIATION, et al.,
Defendants.
ORDER
This matter is before the Court on Plaintiffs Motion to
reopen the time to file an appeal. (ECF No. 64). Plaintiff,
who is proceeding pro se, explains in the motion that
Plaintiff did not know the “details of time limitation and
the process of filing an appeal” in the Sixth Circuit.
(ECF No. 64 at 1).
Ordinarily, a notice of appeal from a judgment in a civil
case must be filed “within 30 days after entry of the
judgment or order appealed from.” Fed. R. App. Pro.
4(a)(1). A timely notice of appeal from the judgment
entered in this case on March 6, 2019, (ECF No. 56),
should have been filed by April 5, 2019. Plaintiffs Notice
ofAppeal is stamped April 15,2019. (ECF No. 57).
However, a district court may reopen the time for
filing a notice of appeal, for fourteen days, if:

1

a.

b.

c.

the court finds that the moving party did not receive
notice under Federal Rules of Civil Procedure 77(d)
of the entry of the judgment or order sought to be
appealed within 21 days after entry;
the motion is filed within 180 days after the
judgment or order is entered or within 14 days after
the moving party receives notice under Federal Rule
of Civil Procedure 77(d) of the entry, whichever is
earlier; and
the court finds that no party would be prejudiced.

Fed. R. App. P. 4(a)(6) (emphasis added).

The docket indicates that the copy of the Judgment
mailed to plaintiff was returned with the notation
“undeliverable.” (ECF No. 61). However, Plaintiffs
Notice of Appeal is stamped April 15, 2019, and in that
Notice, Plaintiff says “he came to know about the
Judgment on the Summary Judgment Motion on 3/29/19
from the Pacer website.” (ECF No. 57). Thus, a request to
reopen the time for filing a notice of appeal should have
been filed within fourteen days of the date that plaintiff
received notice of the Judgment. Plaintiff received notice
of the entry of judgment at least by March 29, 2019. The
instant Motion was not filed within 14 days of Plaintiff s
receiving notice of the entry. Under these
circumstances, the standard of Rule 4(a)(6) of the
Federal Rules of Appellate Procedure has not been met.
Accordingly, the instant Motion to reopen the time to file
an appeal is DENIED.
IT IS SO ORDERED.
DATED:
May 23, 2019

s/ Algenon L. Marblev
ALGENON L. MARBLEY
UNITED STATES DISTRICT
JUDGE

2

Appendix-C
N019-3340

UNITED STATES
FILED
May 09,2019
COURT OF APPEALS
FOR THE SIXTH CIRCUIT Deborahs.hunt,cierk|
DR. BELLUR G. SHIVA PRASAD,

)

Plaintiff-Appellant,

)
)
)

v.

)

ORDER

)
)
)
)
)

GENERAL ELECTRIC
COMPANY, et al„
Defendants-Appellees.

Before: SUHRHEINRICH, GIBBONS,
and WHITE, Circuit Judges.
“Every federal appellate court has a special
obligation to satisfy itself... of its own jurisdiction....”
Alston v. Advanced Brands & Importing Co., 494 F.3d
562, 564 (6th Cir. 2007) (quoting Steel Co. v. Citizens
for a Better Env % 523 U.S. 83,95 (1998)). Generally, in
a civil case where the United States, a United States
agency, or a United States officer or employee is not a
party, a notice of appeal must be filed within thirty days
after the judgment or order appealed from is entered.
28 U.S.C. § 2107(a); Fed. R. App. P. 4(a)(1)(A).
On March 6, 2019, the district court entered a
judgment for the defendants on Dr. Bellur G. Shiva
Prasad's retaliation claim brought under Title VII of

1

the Civil Rights Act of 1964, 42 U.S.C. § 2000e-2(a)(l).
Any notice of appeal was due to be filed on or before
April 5, 2019. The notice of appeal filed in the district
court on April 15,2019, is late.
In the notice of appeal, Dr. Prasad asserts that he
was in India and that, “[a]lthough he was watching the
Pacer website reasonably frequently, he came to know
about the Judgment on the Summary Judgment Motion
on 3/29/19 from the Pacer website.” He states that he
“returned to Ohio on 4/11/19 and hence is submitting
this notice concerning his decision to file an appeal in
the US 6th Circuit Court at Cincinnati.” He asks this
court to “condone any delay for filing this No. 19-3340
notice, if any.” The time for filing a notice of appeal
runs from entry of the judgment or order, not receipt of
the judgment or order. See Fed. R. App. P. 4(a)(1); see
also Gnesys, Inc, v. Greene, 437 F.3d 482, 485 (6th Cir.
2005); Reid v. White Motor Corp., 886 F.2d 1462, 1465
(6th Cir. 1989). Both 28 U.S.C. § 2107(c) and Federal
Rule of Appellate Procedure 4(a)(6) allow an appellant
to move to reopen the time to file an appeal if the
appellant did not receive timely notice of the entry of
the order or judgment from which he appeals. The
district court may reopen the time to file an appeal if the
following conditions are satisfied: (1) the appellant did
not receive notice of the entry of judgment within 21
days after its entry; (2) the appellant files a motion for

2

extended time within 180 days after the judgment or
order is entered or within 14 days after receiving
notice, whichever is earlier; and (3) no party would be
prejudiced by an extension of time. 28 U.S.C. § 2107(c);
Fed. R. App. P. 4(a)(6). This “optionQ for extending the
time to file an appeal require [s] a 'motion' in which the
losing party asks the district court for more time.”
Martin v. Sullivan, 876 F.3d 235, 237 (6th Cir. 2017).
Dr. Prasad did not file a motion with the district court,
which means that the district court has not reopened
the time to file an appeal. We are “without power to
construe a notice of appeal as a motion to reopen the
time to file an appeal” and thus lack jurisdiction. Id.
For the reasons set forth above, we DISMISS the
appeal for lack of jurisdiction.

ENTERED BY ORDER OF THE COURT

s / Deborah S. Hunt
Deborah S. Hunt, Clerk

3

Appendix-D
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
DR. BELLUR G.
SHIVA PRASAD,
Plaintiff,
V.
GE AVIATION, etal.,
Defendants,

Civil Action 2:13-cv-272
JUDGE
ALGENON L. MARBLEY
Magistrate Judge Vascura

OPINION AND ORDER
This matter is before the Court on Defendant's Motion
for Summary judgment, ECF No.43,1 plaintiffs
memorandum contra, Rebuttal to Summary Judgment
Motion, ECF No. 46 (hereinafter "Memo, in Opp"),
Defendant's Reply Memorandum in. Support of Its
Motion for Summary Judgment, ECF No. 49
(hereinafter "Reply"), and plaintiffs surreply,
Rebuttal to Defendants' Reply Memorandum in
Support of Summary Judgment Motion, ECF No.52
(hereinafter “Surreply”). For the reasons that follow,
Defendant's Motion for Summary judgment is
GRANTED.
'Plaintiff names as defendants not only General Electric Company but also
General Electric Aviation, which is identified as a business unit of General
Electric Company and not a separate legal entity. Amended Complaint,
ECF No. 4, | 2; Defendant's Motion for Summary Judgment, ECF No. 43,
PagelD# 244. The Court will refer to defendants collectively as “GE.”

1

Procedural History
Plaintiff Bellur G. Shiva Prasad, Ph.D., was
employed by GE for approximately four (4) months in
2012, assigned to work on the analytical modeling of air
and fluid flow through jet engines as a senior staff
engineer/technologist. Following the termination of his
employment, he initiated this action without the
assistance of counsel, asserting claims under “Title VII
of the Civil Rights Act of 1964 including ADEA and
retaliation and the Ohio Law,” as well as a state law
claim of wrongful termination in violation of public
policy. Complaint, ECF No. 2, PagelD# 3. Counsel
thereafter entered an appearance on behalf of plaintiff,
Notice ofAppearance, ECF No. 3, and filed an Amended
2
Complaint, ECF No. 4. The Amended Complaint
invokes only Ohio's public policy and “Title VII of the
Civil Rights Act of 1964 as amended, 42 U.S.C. § 2000e3 and Ohio R. C. 4112.02(1),” id., at PagelD# 11, and
asserts a claim of wrongful termination in violation of
Ohio Public Policy, id. at
14 (Count One), and
retaliation “for making a Civil Rights violation
complaint to the EEOC/Ohio Civil Rights Commission.,
in violation of Title VTI of the Civil Rights Act of 1964,,
42 U.S.C. § 2000e-3, and Ohio R.C. 4112.02(1),” id. at 1
2

Neither the original Complaint nor the Amended Complaint
was verified.

2

15 (Count Two). The Amended Complaint specifically
alleges that plaintiffs employment was terminated
in retaliation for his making complaints to Defendant
about jet engine design problems involving fuel
detection sensors and engine safety, complaining about
intoxicated coworkers, complaining about the adverse
way he was being treated and disrespected in the office
in violation of Ohio pubhc pohcy which does not permit
an employer to terminate an at-will employee like the
Plaintiff for making complaints to it about jet engine
safety, workplace hazards, and co-worker intoxication,
discrimination, and making reports to the FAA and the
EEOC/Ohio Civil Rights Commission.

.

Id. at 19.
GE moved to compel arbitration of the state law claims,
pursuant to the parties' arbitration agreement, and to
stay proceedings on the Title VII claim pending
resolution of the state law claims in arbitration. Motion
to Compel Arbitration and Stay Proceedings, ECF No.
7. The Court granted that motion, but also noted that
plaintiffs claims of retaliation under federal and state
law were co-extensive:
All three of Plaintiffs claims pertain to the termination of
Defendant's employment. In an attempt to prove his Ohio
Civil Rights claim, Plaintiff will be presenting the same facts
as he would in his Title VII proceedings, since both causes of
action are identical. Plaintiffs claims are not separate and
distinct, but revolve around whether Defendant retaliated
against Plaintiff.

Amended Opinion & Order, ECF No. 14, PagelD# 116
(citation omitted).
3

In the arbitration proceedings, where he was
represented by yet different counsel, plaintiff objected
to the arbitration of the state retaliation claim on the
ground that resolution of that claim by the arbitrator
would effectively also resolve the federal retaliation
claim, which had been reserved for resolution by this
Court. Excerpts from Plaintiff's Arbitration Closing
Brief, ECF No. 43-3, PagelD# 38384. The arbitrator
agreed and declined to consider plaintiffs state law
retaliation claim.
The Court has found that the law governing a Title VII
proceeding is the same as a retaliation claim under
OCRC. It found that the same facts would be presented
in both claims. Notwithstanding the Court's decision
stating that the OCRC retaliation claim is arbitrable,
together with the state claim based on wrongful
termination in violation of public policy, the OCRC
claim should, based upon both parties' positions before
me, be decided and resolved by the Court with the Title
VII claim upon the same facts, proof and law.
Accordingly, the Claimant's state law based claim that
he was terminated from his employment in retaliation
for his bringing an OCRC age discrimination
complaint will not be addressed, considered and
resolved in this proceeding.

Arbitrator's Decision, ECF No. 43-4, PagelD# 386-87.
The arbitrator ultimately concluded that plaintiff had
not established his claim that his employment was
wrongfully terminated in violation of Ohio's public
policy. Id. at PagelD# 394. The Court thereafter
4

granted plaintiffs motion to lift the stay “so that the
parties may proceed to resolve the remaining claim.”
Order, ECF No. 31. Some months later, plaintiffs
counsel was granted leave to withdraw, Order, ECF
No. 41, and plaintiff has been proceeding without the
assistance of counsel since that time. Following the
conclusion of the discovery period, GE filed the motion
for summary judgment.

Standards
1.Summary Judgment
The standard for summary judgment is found in Rule
56 of the Federal Rules of Civil Procedure, which
provides in pertinent part:
The court shall grant summary judgment if the
movant shows that there is no genuine dispute
as to any material fact and the movant is entitled
to judgment as a matter of law.
Fed. R. Civ. P. 56(a). In making this determination,
the evidence must be viewed in the light most
favorable to the non-moving party. Adickes v. S.H.
Kress & Co., 398 U.S. 144 (1970). Summary judgment
is not warranted if the dispute about a material fact is
genuine, “that is, if the evidence is such that a

5

reasonable jury could return a verdict for the non
moving party.” Anderson v. Liberty Lobby, Inc., All
U.S. 242, 243 (1986). However, summary judgment is
appropriate if the opposing party fails to make a
showing sufficient to establish the existence of an
element essential to that party's case and on which
that party will bear the burden of proof at trial.
CelotexCorp. v. Catrett, All U.S. 317, 322 (1986). The
mere existence of a scintilla of evidence in support of
the opposing party's position will be

insufficient;

there must be evidence on which the jury could
reasonably find for the opposing party. Anderson, All
U.S. at 251.
The party moving for summary judgment always
bears the initial responsibility of informing the
district court of the basis for its motion and identifying
those portions of the record which demonstrate the
absence of a genuine issue of material fact. Catrett,
All U.S. at 323. Once the moving party has met its
initial burden, the burden then shifts to the
nonmoving party who “must set forth specific facts
showing that there is a genuine issue for trial.”
Anderson, All U.S. at 250. “Once the burden of
production has so shifted, the party opposing
summary judgment cannot rest on its pleadings or

6

merely reassert the previous allegations. It is not
sufficient to 'simply show that there is some
metaphysical doubt as to the material facts.'” Glover v.
Speedway Super Am. LLC, 284 F.Supp.2d 858, 862
(S.D. Ohio 2003)(quoting Matsushita Elec. Indus. Co.
v. Zenith Radio Corp., 475 U.S. 574, 586 (1986).
Instead, the non-moving party must support the
assertion that a fact is genuinely disputed. Fed. R.
Civ. P. 56(c)(1).
In ruling on a motion for summary judgment “[a]
district court is not... obligated to wade through and
search the entire record for some specific facts that
might support the nonmoving party's claim.” Glover,
284 F.Supp. 2d at 862 (citing InteRoyal Corp. v.
Sponseller, 889 F.2d 108, 111 (6th Cir. 1989)). Instead,
a “court is entitled to rely, in determining whether a
genuine issue of material fact exists on a particular
issue, only upon those portions of the verified
pleadings, depositions, answers to interrogatories and
admissions on file, together with any affidavits
submitted, specifically called to its attention by the
parties.” Id. See also Fed. R. Civ. P. 56(c)(3).

7

2. Retaliation Claim
Title VII of the Civil Rights Act of 1964, as amended,
prohibits, inter alia, the discharge of any individual
“because of such individual's race, color, religion, sex,
or national origin.” 42 U.S.C. § 2000e-2(a)(l). The Act
also prohibits retaliation because an individual “has
made a charge, testified, assisted, or participated in
any manner in an investigation, proceedings, or
hearing” under Title VII. 42 U.S.C. § 2000e-3(a). Title
VII does not prohibit discrimination on the basis of age.
It is the Age Discrimination in Employment Act
(hereinafter “ADEA”), 29 U.S.C. § 621 et seq., that is the
federal law prohibiting employment discrimination
based on age, see 29 U.S.C. § 623(a), and retaliation for
having “participated in any manner in an
investigation, proceeding, or litigation under” the
ADEA. See 29 U.S.C. § 623(d). Ohio law, O.R.C. §
4112.02(A), is broader than either Title VII or the
ADEA in this regard. That state statute prohibits
discrimination on the basis of “race, color, religion, sex,
military status, national origin, disability, age, or
ancestry.” O.R.C. § 4112.02(A). Ohio law also prohibits
retaliation for having “participated in any manner in
any investigation, proceeding, or hearing under”
O.R.C. § 4112.01 et seq. O.R.C. § 4112.02(1). As noted
supra, the Amended Complaint asserts claims of
8

retaliatory termination “for making a Civil Rights
violation complaint to the EEOC/Ohio Civil Rights
Commission” in violation of Title VII and § 4112.02(1).
Amended Complaint, 115.
The Court previously referred all of plaintiff s state law
claims to arbitration and stayed only the Title VII
retaliation claim.
Amended Opinion & Order, ECF No. 14. However, the
arbitrator declined - at plaintiffs request - to consider
plaintiffs retaliation claim under O.R.C. § 4112.02(1)
so as to preserve plaintiffs retaliation claim under
Title VII for the Court's resolution. Arbitrator's
Decision, ECF No. 43-4, PagelD# 386-87. Plaintiffs.
Title VII retaliation claim is therefore ripe for
resolution by this Court.
A plaintiff claiming unlawful retaliation in violation of
Title VII must establish that his protected activity was
the “but-for cause” of the alleged adverse action by the
employer. Unix), of Texas Sw. Med. Ctr. v. Nassar, 570
U.S. 338, 360 (2013). Unless the plaintiff can establish
that the employer would not have taken the adverse
employment action but for its intention to retaliate, the
claim will fail.
A retaliation claim may be established either by direct
evidence of retaliation or by circumstantial evidence

9

sufficient to give rise to an inference of retaliation.
Imwalle v. Reliance Med. Prods., Inc., 515 F.3d 531,
538 (6th Cir. 2008). In the latter circumstance, “[c]ourts
analyzing retaliation claims apply the McDonnell
Douglas framework of shifting burdens of production
and proof.” Dixon V.

Gonzales, 481 F.3d 324, 333 (6th

Cir. 2007) (citing McDonnell Douglas Corp. v. Green,
411 U.S. 792 (1973)). In order to establish aprima facie
claim of retaliation based on circumstantial evidence, a
plaintiff must prove (1) that he engaged in protected
activity under Title VII, (2) that his exercise of
protected rights was known to the employer, (3) that
the employer thereafter took an adverse employment
action against the plaintiff, and (4) a causal connection
exists between the protected activity and the adverse
employment action.

Morris v. Oldham Cnty. Fiscal

Court, 201 F.3d 784, 792 (6th Cir. 2000). If the plaintiff
meets this initial burden, the burden of production
then shifts to the employer to articulate a legitimate,
nonretaliatory reason for its actions. Id. at 793. At that
point, it is the plaintiff, who always bears the ultimate
burden of persuasion, who must prove that the
protected activity was the but-for cause of the adverse
employment action.
Plaintiff offers no direct evidence of unlawful
retaliation in this action. GE contends that plaintiff
10

cannot establish a prima facie case of retaliation based
on circumstantial evidence because, “at the time of
Plaintiffs termination, GE 0 had no knowledge of him
contacting the EEOC.” Defendant's Motion for
Summary Judgment, PagelD# 245. In any event, GE
argues, plaintiffs deficient performance as an
employee provided a legitimate, non-retaliatory reason
for the termination of his employment.
Discussion
Plaintiff was hired by GE in January 2012 and
began working in February 2012. Arbitration Hearing
Transcript (hereinafter “Tr. p.
3

’_”), p. 34. At the time, plaintiff was 64 years of age.
Id. at p. 4. Plaintiff had difficulty getting along with
other engineers and even with his own supervisors,
Kevin Klasing and Tim Stone. See, e.g., Tr. pp. 97,188
- 199. On May 11, 2012, Stacey Marroso, a human
resources manager, advised plaintiff that Tim Stone
had reported that plaintiff was not “doing any work,”

3Both sides have submitted excerpts of the arbitration
transcript, Excerpts from Arbitration Hearing Transcript,
ECF Nos. 43-1,43-2; Refl Part 1-Ref-1 Part 4, ECF Nos. 461 _ 46-4, although plaintiffs submission is the more complete.
The Court will refer to the page of the transcript, rather than
to the PagelD# number.

11

was “asking too many questions in meetings,” and was
“not following the instructions of [his] supervisors.” Tr.
pp. 97, 203. On May 25, 2012, Kevin Klasing gave
plaintiff a coaching plan and a disciplinary warning
signed by Klasing and Stone. ECF No. 46-5, PagelD#
769-74; Tr. pp. 148, 208, 213. Plaintiff regarded the
plan and warning as “silly.” Tr. p. 213. On June 1,2012,
plaintiff met with Klasing, who gave plaintiff another
set of notices regarding deficiencies in plaintiffs
performance. ECF No. 46-5, PagelD# 775-78; Tr. p.
149-51. Later that same day, plaintiff complained to
the Federal Aviation Administration (hereinafter
“FAA”) about defects that he perceived in the design of
GE's engines and his perceived threat to his
employment. Tr. pp. 155, 208-09.4 Plaintiff also called
the EEOC with a complaint. Tr. p. 210. Plaintiffs
employment with GE was terminated on June 6, 2012.
June 6, 2012 Letter to Plaintiff from Stacey Morroso,
ECF No. 46-5, PagelD# 812; Tr. p. 153. A written
complaint, apparently filed with the EEOC on June 11,
2012, alleged discrimination based on color, religion,
national origin, age, and retaliation. Charge of
Discrimination, ECF No. 43-5, PagelD# 396.
4
Plaintiff received no response from the FAA. Tr. p. 156.

12

During the arbitration proceeding, plaintiff
acknowledged that he “didn't communicate to anyone
at GE □ that [he] had contacted the EEOC.” Id.
Specifically, plaintiff testified that he “didn't
communicate anything about national origin
discrimination to anyone at GE Q, . . . about color
discrimination,.

. .

[or] about religious

discrimination.” Tr. pp. 210-11. However, plaintiff
also testified that he had told GE's human resource
manager that a GE employee had called plaintiff “old,”
Tr. p. 211. This apparently referred to a May 8, 2012,
incident involving one Rob Athans, who introduced
i

plaintiff at a group presentation as “older than many
of the people and so [he has] more experience than
many of the people there in the group.” Tr. p. 88.
Plaintiff was offended by the reference to his age, and
he so advised Athans. May 8, 2012, Email to Rob
Athans, ECF No. 46-5, PagelD# 809.
GE contends that, because GE had no knowledge of
plaintiffs contact with the EEOC, it could not have
retaliated against him because of that contact. In his
response, plaintiff continues to emphasize his efforts
to report and “rectify” GE's “unsafe product design.”
Memo, in Opp., PagelD# 410. Of course, any such
efforts - although relevant to plaintiffs public policy
claim - are irrelevant to his remaining claim of
13

unlawful retaliation under Title VII. Moreover,
plaintiff appears to confuse unpleasant treatment in
the work-place with unlawful discrimination:
. . the Plaintiff complained to the HR Man[a]ger about
Stone's direction to the plaintiff to behave like a military
person and obey the bosses. The HR manager did not tell
the plaintiff that Stone or management staff have given
similar directions/notices to other employees. This
demonstrates that the plaintiffwas treated differently than
others, which amounts to discrimination.

Memo, in Opp., PagelD# 412. When plaintiff asserts
that he reported discriminatory actions to GE
managers,5 it is therefore unclear whether he is
referring to discriminatory practices violative of Title
VII. It is true that plaintiff also asserts that he was
discriminated against by “some lower level
management staff along with some employees”
because of his national origin and religious culture. Id.
at PagelD# 412-13. However, the Amended Complaint
asserts claims of unlawful retaliation, not of
underlying unlawful discrimination.
Plaintiff also refers to the May 8 incident during which
Rob Athans referred to him as “old;” plaintiff testified
at the arbitration proceeding that he reported this
5

Plaintiff does not refer the Court to any exhibits documenting
such reports.

14

incident to GE's human resources manager. There are
two reasons why this incident is insufficient to
overcome the motion for summary judgment. First,
plaintiffs federal claim is based on Title VII, which
does not address age-related employment practices.
The Amended Complaint makes no mention of the
ADEA and plaintiff will not be permitted to assert, in
his response to the motion for summary judgment, an
entirely new claim based on an entirely different
federal statute.6 Second, the Amended Complaint
specifically alleges retaliation for having made a
“complaint to the EEOC/Ohio Civil Rights
Commission.” Id. at f 15. The claim asserted in the
Amended Complaint and upon which GE has based its
defense in this action makes no reference to retaliation
for having made an internal complaint to GE's human
resources manager.
Again, it would be unfair to GE to permit plaintiff to
effectively further amend the Amended Complaint in
order to alter his entire theory of recovery in response
to GE's motion for summary judgment.

6The fact that the Equal Employment Opportunity Commission
is authorized to receive and investigate complaints under both
Title VII and the ADEA does not change this conclusion.

15

In short, the Court concludes that plaintiff has failed to
establish a prima facie case of retaliation under Title
VII and that GE is therefore entitled to summary
judgment.
WHEREUPON Defendant's Motion for
Summary judgment, ECF No. 43, is GRANTED. The
Clerk is DIRECTED to enter FINAL JUDGMENT
for defendants.

s/ Algenon L. Marblev
Algenon L. Marbley
United States District Judge

DATED: March 6, 2019

16

Appendix-E
Dear Congressman DeFazio,
Larsen & LoBiondo
Aviation Infrastructure
Subcommittee of US Congress:

Date: April 24, 2018

I am writing this as an aerospace engineer/researcher
and an international flying public.
I looked at Congressman DeFazio’s website recently
and want to thank Congressman DeFazio and Larsen
for their and your Subcommittee’s keen interest in
raising important concerns regarding aviation. A few
days ago, after seeing his website for the first time,
expecting that it will be difficult to reach him amidst his
very busy schedule, I still called Congressman
DeFazio’s office and afterwards left a detailed message
with the Aviation Subcommittee staff to whom my call
was transferred.
Regarding the recent Southwest airline Boeing 737
accident, I think you have heard that as of now the
NTSB investigation has again resulted in throwing the
blame on maintenance and making FAA to pass another
directive asking the airlines to take care of blade0
failures by doing more frequent ultrasonic inspections
of blades for identifying fatigue cracks.
Please note that the most recent two Southwest (B737)
and one Airbus380 fan blade failure incidents/accident,
1

are not the only ones with blade failures, as blades
include turbine and compressor blades also. All of these
rotating parts have resulted in many airplane
incidents/accidents caused by uncontained / contained
engine failures.
Unfortunately, even after so many fan, turbine and
compressor blade failure related incidents/accidents,
neither the engine manufacturers nor NTSB, FAA and
Airlines have either not thought about or
questioned/understood why the vibration sensors (at
least those installed in the shaft) employed in engines
are not being used to detect cracks, or are not being used
properly for detecting cracks and forewarning them
about impending fatigue failure of the blades in engines.
Are they placing and using the vibration sensors
properly? Are they acquiring those sensor data in the
flight data recorders? Are they using it to detect fatigue
cracks? Could they not use such data and also use
remote monitoring and diagnostics to acquire, analyze
and detect cracks, even in real time with the available
technology and software? Even though the technology
and software might not be ripe enough yet (?) to detect
fatigue cracks in real time, they can definitely use it to
analyze it offline, detect cracks and identify engines
needing immediate inspection and take care of it. That
will save them maintenance cost also!
Sensor technology has developed to such an extent, that
one need not monitor only shaft vibration. Vibration

2
1

and other sensors can be placed in other parts of the
engine and telemetry (not just transmission through
brush) can be used to transmit signals from moving
parts. This coupled with remote monitoring and
diagnostics and even artificial intelligence, could not
only help with ground based real time assistance to
inflight problems but also help in continuous
improvement of design. Why are engine and airplane
manufacturers not using these ? When they sell the
airplanes, they sometimes talk about, smart materials,
self-healing materials, etc. NTSB, FAA and even ICAO
permit them to employ such sales pitch without any
check and balance.
Aviation Ombudsman organizations in other countries
also do not raise their voice in ICAO and the tendency of
commercial aerospace systems manufacturers to ignore
implementing the available advances in technology
continues. As a result aviation accidents happen quite
frequently and many are losing their lives. However, as
only a very small percentage of the population enjoy the
luxury/pain of flying in airplanes, statistical jugglery is
many times used by media to make it an unimportant
event by telling that airplane accidents cause a very
small percentage of death compared to automobile
accidents or cancer or heart failure, etc.
Please also find attached some important
communication / correspondences (which was started in
8/2012) with ICAO and UN Secretary General’s office
concerning Global Aviation Safety issues and the lack of

3

attention to Design, Development and Manufacturing
and some of my suggested solutions.
As an aerospace engineer, I once again like to commend
your work in drawing the attention of FAA to answer
questions relating to various other issues. I hope you
will consider my issue of lack of required attention to
establishing some checks and balances in design,
development and manufacturing also.

with Regards,
Dr. B. G. Shiva Prasad
ASME Fellow
Sidney, Ohio
l

4

